   United States Department of Agriculture
   Office of Inspector General




Effectiveness of the Smuggling, Interdiction,
and Trade Compliance Unit




                                             Audit Report 33601-0012-CH
                                             August 2012
                           United States Department of Agriculture
                                  Office of Inspector General
                                    Washington, D.C. 20250


DATE:          August 20, 2012

AUDIT
NUMBER:        33601-0012-CH

TO:            Kevin Shea
               Acting Administrator
               Animal and Plant Health Inspection Service

ATTN:          Joanne L. Munno
               Deputy Administrator
               Marketing and Regulatory Programs Business Services

FROM:          Gil H. Harden
               Assistant Inspector General for Audit

SUBJECT:       Effectiveness of the Smuggling, Interdiction, and Trade Compliance Unit


This report presents the results of the subject review. Your written response to the official draft
report, dated June 29, 2012, is included in its entirety at the end of the report. Excerpts from
your response and the Office of Inspector General's position are incorporated into the relevant
sections of the report. Based on your written response, we are accepting your agency’s
management decisions for all audit recommendations in the report and no further response to us
is necessary. In accordance with Departmental Regulation 1720-1, final action on the
management decision should be completed within 1 year of the date of the management
decisions to preclude being listed in the Department’s annual Performance and Accountability
Report.

We appreciate the courtesies and cooperation extended to us by members of your staff during our
audit fieldwork and subsequent discussions.
Table of Contents

Executive Summary .................................................................................................1
Background and Objectives ....................................................................................4
Section 1: Internal Control Structure ...................................................................6
   Finding 1: APHIS Needs to Establish Adequate Internal Controls ...............6
         Recommendation 1 ........................................................................................8
         Recommendation 2 ........................................................................................9
   Finding 2: SITC’s Market Surveys Do Not Efficiently Identify Prohibited
   Products ...............................................................................................................10
         Recommendation 3 ......................................................................................13
         Recommendation 4 ......................................................................................13
         Recommendation 5 ......................................................................................14
   Finding 3: SITC Did Not Take Sufficient Action to Stop Imports of Higher-
   Risk Products ......................................................................................................14
         Recommendation 6 ......................................................................................17
         Recommendation 7 ......................................................................................17
         Recommendation 8 ......................................................................................18
         Recommendation 9 ......................................................................................18
   Finding 4: SITC Lacks Controls Over Its IT System and Related Data .....19
         Recommendation 10 ....................................................................................21
         Recommendation 11 ....................................................................................22
         Recommendation 12 ....................................................................................23
         Recommendation 13 ....................................................................................23
Scope and Methodology .........................................................................................25
Abbreviations .........................................................................................................27
Exhibit A: SITC National Organizational Chart ..............................................28
Agency’s Response .................................................................................................29
Effectiveness of the Smuggling, Interdiction, and
Trade Compliance Unit

Executive Summary

The Smuggling, Interdiction and Trade Compliance (SITC) unit is part of the Animal and Plant
Health Inspection Service’s (APHIS) Plant Protection and Quarantine (PPQ) program. SITC’s
mission is to identify and prevent the unlawful entry and distribution of prohibited agricultural
products that may harbor plant and animal pests, diseases or invasive species. These prohibited
products and pests cause billions of dollars in lost revenue and millions in cleanup costs—with
some scientists estimating their economic impact exceeding $1 billion annually in the United
States.1

The methods by which these products enter the country are called “pathways” that SITC, in
conjunction with other agencies, must seek to “close.”2 SITC’s officers in the field represent the
last line of defense to identify, seize, and then close the pathways for prohibited products to
prevent future shipments from entering the U.S. market place. SITC’s mission is accomplished
by its officers that perform unannounced market surveys, in places like retail stores and
distribution centers, with the goal of identifying new pathways and seizing prohibited
agricultural products.3 After SITC identifies a prohibited product, it can work with the
Department of Homeland Security’s Customs and Border Protection (CBP) authorities to stop
future shipments from entering the United States. SITC meets its mission by successfully
seizing or generating a trace back of a prohibited product found in the marketplace, and working
with other agencies to close the new pathway through which it entered.4 We evaluated SITC’s
effectiveness and coordination with other agencies in identifying new pathways for prohibited
agricultural products, and its corrective actions to close those pathways.

After reviewing SITC activities from fiscal year (FY) 2008 through FY 2011, we found that
SITC’s control environment did not include a system of management accountability in order to
foster efficiency, adequacy, or accuracy in either achieving its core mission or in reporting its
results. For example, we found that 90 percent of SITC’s market surveys were not successful at
either seizing a prohibited product or in generating a trace back to identify the importer of a
prohibited product. For the surveys that were successful in these two areas, SITC did not take
further action to stop future shipments for 96 percent of the higher-risk imported prohibited
products it seized.5 Finally, for the cases where SITC did take further action, officers did not


1
  Plant Protection and Quarantine, APHIS Factsheet, dated August 2010.
2
  According to SITC’s Strategic Plan, dated May 2008, a pathway is both the point where a prohibited product
enters the United States (port-of-entry or crossing), and the distributing importer, regardless of how it is transported.
3
  SITC’s website explains that a market can include major distribution centers, flea markets, farmers markets,
animal/plant and insect trade shows, large and small chain stores, roadside vendors, or a neighborhood corner store.
4
  During a trace back, SITC officers attempt to determine who the importer is and how and where the prohibited
items entered the United States.
5
  APHIS defines low-risk products, but not high-risk products. For purposes of this report, we defined higher-risk
products as anything that did not appear on APHIS’ low risk list.

                                                                            AUDIT REPORT 33601-0012-Ch                 1
perform follow-up visits at one third of the high-risk markets6 to ensure that the pathway
remained closed.7 When we discussed SITC’s low success rates for seizing prohibited products
and closing pathways with the Deputy Administrator in charge of SITC, she noted that although
nationwide benchmarks had never been established in the interest of allowing SITC officers
maximum flexibility in performing their duties, the success rates we cited were surprisingly low
given SITC’s mission (i.e., to identify new pathways). In addition, we found that in the few
offices that closely followed SITC guidance, proactively cooperated with other agencies, or
timed visits outside of normal business hours, success rates were significantly higher (see
Finding 2). As a result of SITC’s low success rates, there is an increased risk that prohibited
products would not be identified by its officers and these products could move through the
country and further spread foreign plant disease and pests that could devastate U.S. agriculture.

We also found that SITC used an unapproved information technology (IT) system for 3 years
without informing APHIS’ IT division (ITD) of its existence or ensuring that reports from that
system were accurate and supported. SITC management did not inform APHIS’ ITD because
the IT system was developed “in-house” and, therefore, did not realize the need for it to go
through the required Federal approval process to secure it from unauthorized access or
dissemination of personally identifiable information. In addition, we found that SITC’s reports
generated from this IT system contained unsupported field data (such as the results of SITC
officers’ market surveys), because SITC management did not require its supervisors to review
the report for accuracy before publication. For instance, when APHIS reported SITC’s
FY 2010 accomplishments to Congress, it overstated the number of violations SITC
recommended for investigation by 106 percent.8 We issued a Fast Report9 on the issue of the
unapproved IT system in April 2011, and APHIS took immediate actions on our
recommendations. However, SITC has not yet implemented the corrective actions necessary to
ensure its reports to Congress are accurate and supported.

Overall, PPQ upper management trusted its managers and staff without providing sufficient
requirements and directions for them to follow.10 In addition, SITC did not hold managers and
supervisors accountable for ensuring their staff was successful at identifying and closing new
pathways for imported prohibited products, which are key to SITC achieving its mission. PPQ
upper management officials stated that they wanted to give officers maximum flexibility to adapt
their activities to local needs. While flexibility is an important quality for a unit like SITC, we
found that PPQ management did not enforce accountability across supervisory levels. This
weakened PPQ’s ability to ensure the efficient and effective use of Federal funds, and did not
ensure that adequate safeguards were in place to protect its IT systems.

6
  SITC defines a high-risk market as one where SITC officers previously seized a prohibited imported product and
notified CBP to close that pathway. SITC encourages its officers to conduct follow up market surveys for these
high-risk markets.
7
  A pathway, which is the route that a prohibited product enters the United States and delivered to a market, is
considered closed once a specific prohibited product is no longer able to enter the country through that particular
pathway.
8
  APHIS’ FY 2012 Budget Explanatory Notes (justifications of proposed funding changes for FY 2012, as well as
explanations of ongoing programs).
9
  Fast Report 33601-0012-CH (1), issued April 7, 2011.
10
   For the purposes of this report, we define upper management as the SITC National Coordinator and APHIS
regional directors.

2     AUDIT REPORT 33601-0012-Ch
Subsequent to our discussions with APHIS officials, PPQ’s Deputy Administrator took
immediate action to analyze SITC operations. In October 2011, she established a working group
to assess SITC’s role within PPQ. On February 8, 2012, PPQ issued a list of proposals on its
plan to improve the SITC program. Our review of that report found that it presented a
meaningful plan of action to improve SITC’s management accountability and the results of its
operations. PPQ plans to fully implement all of the working group’s recommendations by March
2013.

Recommendation Summary

APHIS needs to assess the effectiveness of SITC’s mission, oversight, communication and
monitoring. We also recommend that SITC provide its officers with guidance so that they can
better identify new pathways and develop procedures to ensure that managers and supervisors
oversee this effort and analyze officers’ effectiveness. SITC also needs to clarify and strengthen
instructions on closing pathways, and establish a procedure for performing follow-up surveys. It
should take actions to close pathways for higher-risk products SITC has already seized. The
agency also needs to implement policies and procedures to ensure that accurate data is entered
into SITC’s IT system and supportable reports are available from that system. We further
recommend that APHIS complete the approval process for the IT system and take steps to
protect data until that process is complete. APHIS’ IT division should also review its servers to
identify any additional unauthorized systems.

Agency Response

In APHIS’ response, dated June 29, 2012, agency officials stated that they agreed with all the
recommendations and that PPQ management has already formed a Technical Working Group to
analyze current data and identify patterns of prohibited product movement that present a tangible
threat. PPQ management has agreed to issue new Standard Operating Procedures (SOP) to
ensure that SITC managers and supervisors oversee and analyze officers’ effectiveness. They
have also agreed to issue an SOP with instructions for taking actions to close pathways. APHIS
has agreed to implement policies to ensure accurate data is entered into SITC’ IT system as well
as ensure supportable reports are available from that system. APHIS has already taken action
towards completing approval for its IT system and has agreed to complete the approval of the
current system as well as identify any additional unauthorized systems.

OIG Position

We accept APHIS’ management decisions for all recommendations listed in this report.




                                                              AUDIT REPORT 33601-0012-Ch         3
Background and Objectives

Background

The Animal and Plant Health Inspection Services’ (APHIS) mission of protecting the health and
value of U.S. agriculture and natural resources is achieved through its nine programs. Within
APHIS, Plant Protection and Quarantine’s (PPQ) programs are designed to safeguard agriculture
and natural resources from the risks associated with the entry, establishment, and spread of
animal and plant pests and noxious weeds. These programs are primarily focused at ports-of-
entry to identify both prohibited and allowable items that could harbor animal diseases and plant
pests. In 2001, PPQ established the Smuggling Interdiction and Trade Compliance (SITC) unit
to specifically handle smuggling and trade compliance issues both before and after they impact
U.S. markets. However, in 2002 the Department of Homeland Security (DHS) was authorized,
and in 2003, DHS’ Customs and Border Protection (CBP) assumed authority for the ports-of-
entry. SITC’s duties were shifted primarily to marketplace locations. SITC’s mission is to
identify and close new pathways for the unlawful entry and distribution of prohibited or
noncompliant products that may harbor exotic plant and animal pests, diseases or invasive
species. SITC is the second-line of defense for ports-of-entry, and functions by identifying
prohibited products in the marketplace (i.e., retail stores, warehouses, and distribution centers, or
home-based businesses). The Plant Protection Act of 200011 and associated Federal regulations12
provide SITC’s authority to hold, seize, and destroy any prohibited plant pest or plant product.

Prohibited products include items such as imported wood bark that harbors tree-killing emerald
ash borers or giant African land snails that reproduce rapidly and consume both vegetation and
building materials. SITC personnel perform unannounced visits to retail stores, product
distribution centers, and other locations to identify prohibited products and the pathways by
which they enter the country.13 In the marketplace, SITC officers perform surveys, which are
random inspections and trade compliance activities, to uncover imported prohibited products
(such as pork products from China) or domestic regulated agricultural items (such as citrus tree
branches from Florida). During a market survey, a SITC officer may generate a “trace” by
gathering information about where a prohibited product came from, and using that information to
trace back how the product reached the marketplace, including the port-of-entry where it came
into the United States. The primary reason for generating a trace to the port-of-entry is to identify
the distributor or importer. Once identified, SITC management works with either APHIS’
Investigative Enforcement Services division to pursue civil or criminal prosecutions and issue
product recalls, or with CBP to stop future shipments from entering the United States.

SITC’s mission is considered successful whenever one of its officers seizes an imported
prohibited product found in the marketplace or generates a trace that identifies the pathway
through which that product entered. Due to the nature of SITC’s work in identifying smuggling

11
   7 U.S.C. 7731, dated June 20, 2000.
12
   7 CFR, part 330, dated December 10, 1997, and part 360, dated November 10, 2010, and 9 CFR, part 94, dated
February 7, 2003.
13
   SITC’s website explains that a market can be major distribution centers, flea markets, farmers markets,
animal/plant and insect trade shows, large and small chain stores, roadside vendors, or a neighborhood corner store.

4     AUDIT REPORT 33601-0012-Ch
activity, PPQ and SITC management officials have not established specific benchmarks for
evaluating SITC’s expected success rates for these activities. In addition, SITC has not defined
how to calculate the success rate for a particular office or officer. For purposes of this audit, we
calculated SITC’s success rate (as a percentage) by dividing the number of instances when
officers seized prohibited products or generated traces (whether one or several products) during a
particular market survey by the total number of market surveys completed. For example, if SITC
performed 10 market surveys and seized 20 products at 5 different markets, its success rate
would be 50 percent (5 different markets divided by 10 total market surveys, multiplied by
100 to arrive at a percentage). Therefore, given SITC’s mission, the higher the percentage, the
more successful SITC would be at meeting its mission.

SITC’s management structure includes several layers of supervision. At APHIS Headquarters, a
national coordinator develops policy and directs the program nationwide. At APHIS’ two
regional offices, regional program managers work with the PPQ assistant regional director to
implement policy and provide oversight to the PPQ State plant health directors. SITC uses seven
State plant health directors to provide guidance and oversight to seven SITC area managers
covering multiple States. Area managers, in turn, oversee several supervisors who evaluate field
offices and local SITC officers’ work. (See exhibit A.) The program has about 150 employees
and approximately 60 field offices. Large offices, such as the one located in New York City,
operate with as many as eight officers, while many offices have only one or two officers.

In addition to Federal laws and regulations, SITC’s main program guidance is the Reference
Guide and Standard Operational Procedures manuals.14 In addition, SITC has several data
analysts that provide support for tracing pathways. The data analysts also provide SITC and PPQ
management with program reports and other information generated from a central system that
contains the results of all SITC officers’ market surveys and product seizures. The information
technology (IT) system also contains personal information, such as the name, address, and social
security numbers of importers, as well as law enforcement information shared from other
agencies, such as CBP. SITC also uses its system to report program statistics.

Objectives

To evaluate the effectiveness of APHIS’ PPQ/SITC unit in identifying new pathways by which
prohibited products are entering into the country, and in the subsequent reporting and corrective
actions implemented to close those pathways.




14
     SITC Reference Guide, dated November 2009.

                                                              AUDIT REPORT 33601-0012-Ch          5
Section 1: Internal Control Structure

Finding 1: APHIS Needs to Establish Adequate Internal Controls

APHIS’ internal control structure did not include a system of management accountability to
ensure that PPQ’s SITC unit effectively met its primary mission—to identify and prevent the
entry and distribution of prohibited products—or used only approved and secured IT systems.
This occurred because PPQ relied on its SITC managers and supervisors to properly perform
their duties without ongoing oversight, such as the establishment of program benchmarks and
periodic reporting to ensure that the unit was performing effectively and complying with APHIS
policies and procedures. Within PPQ’s SITC unit, upper management officials stated that they
wanted to give their field officers maximum flexibility to adapt their activities to local needs.15
Although flexibility is an important quality for a unit like SITC, we found that APHIS’
insufficient internal controls created a culture that did not foster accountability for supervisors in
the field. As a result, we found that SITC officers had a 10 percent success rate in identifying
new pathways for importing prohibited products during market surveys nationwide (see Finding
2), and only took actions to prevent the import of future shipments for 4 percent of the new
pathways identified (see Finding 3). In addition, APHIS was unaware that SITC had been
operating an unauthorized IT system for at least 3 years, without the required certification and
accreditation review to ensure that its sensitive information was kept secure (see Finding 4).
The Government Accountability Office (GAO) established five goals which call for government
agencies to establish a control environment that sets a “positive and supportive attitude toward
internal control and conscientious management.”16 These goals also include assessing risks;
establishing policies, procedures, techniques, and mechanisms that enforce management’s
directions; effectively communicating information; and monitoring a program’s performance
over time and promptly resolving identified issues. For PPQ’s SITC unit, we determined that
APHIS did not adequately meet the five GAO goals.

     Overall Control Environment: APHIS established a control environment within SITC that
     relied upon the program’s upper management to inform APHIS headquarters’ management if
     there was a problem, without requiring them to periodically report on the program’s
     effectiveness. This reliance filtered through to supervisors at the State and local levels, as
     neither PPQ nor SITC upper management required their supervisors to perform periodic
     oversight of field operations.17 SITC’s upper management did not require this oversight
     based on their belief that supervisors were adequately overseeing employees in the field, and
     did not perform reviews of their own to support that belief. In addition, neither PPQ’s nor
     SITC’s upper management properly exercised their oversight authority to ensure managers
     and supervisors were held accountable for deficiencies. This policy had repercussions that
     impacted the entire program. For instance, we found that PPQ upper management had

15
   For the purposes of this report, we define upper management as SITC’s National Coordinator and regional
directors.
16
   GAO/AIMD-00-21.3.1, Standards for Internal Control in the Federal Government, dated November 1999, and
OMB Circular A-123, Management’s Responsibility for Internal Control, dated December 2004.
17
   State and area level supervisors are the State Plant Health Directors (SPHDs) and SITC area managers (SAMs).

6     AUDIT REPORT 33601-0012-Ch
     neither established a success rate for its officers to meet nor required reporting on how
     successful SITC was nationwide. As a result, SITC managers and supervisors were not
     aware of SITC officers’ 10 percent success rate in identifying new pathways for importing
     prohibited products during its market surveys nationwide (see Finding 2). In addition, when
     SITC officers did identify new pathways, they were successful only 4 percent of the time in
     taking actions to prevent future shipments from being imported into the United States (see
     Finding 3). Similarly, SITC upper management did not timely inform APHIS’ IT division
     when it implemented a key IT system. SITC also did not evaluate the IT system according to
     a required APHIS procedure intended to secure such systems from unauthorized use or data
     dissemination. We determined that SITC used this system—which held both sensitive
     personal information and law enforcement data—for at least 3 years without APHIS
     management becoming aware of it (see Finding 4).

     Performance Monitoring: PPQ did not hold its SITC managers accountable for monitoring
     program performance. Specifically, PPQ did not require the establishment of key
     benchmarks to measure the success rate for its officers in performing market surveys. While
     SITC managers required individual offices to create annual work plans, they did not follow-
     up later to compare those work plans to how successful SITC offices were in identifying and
     closing new pathways for imported prohibited products. This occurred because SITC
     management officials had not established specific benchmarks for evaluating SITC’s
     expected success rates for the activities listed in an office’s work plan. In addition, SITC has
     not defined (i.e., whether to include seizures, traces, or both) in their calculation of a success
     rate for a particular office or officer. As a result, SITC managers did not take any action
     against one SITC office that succeeded in identifying prohibited products in just 3 percent of
     its market surveys per year for the last 3 years. APHIS’ Deputy Administrator for PPQ
     considered these success rates low and in need of improvement, but could not provide a
     specific performance benchmark because APHIS had not previously established one that its
     field officers were expected to meet.18 In addition, SITC’s upper management did not
     establish procedures to require that its managers and supervisors ensure the accuracy of the
     national database—SITC’s central reporting tool—by periodically reviewing reports of field
     officers’ success rates in identifying and closing new pathways.

     Risk Assessment: PPQ and SITC management did not perform risk assessments to identify
     or analyze risks associated with SITC’s mission.19 Not only did the lower levels not perform
     risk assessments, but PPQ and SITC upper management were unaware that these risk
     assessments were not being completed (see Finding 2). Without risk assessments, PPQ and
     SITC officials do not have a clear picture of how to effectively allocate either staff or SITC’s
     $16 million budget.

     Control Mechanisms: PPQ did not ensure that SITC officers followed program guidance
     (see Findings 2 and 3). While management believed that supervisors carried out control
     activities as part of their inherent responsibility, our audit discovered that many were not

18
   APHIS officials stated that the lack of nationwide benchmarks reflected SITC’s policy of giving each field office
the maximum possible flexibility in carrying out the agency’s mission.
19
   SITC could use risk assessments to target their market surveys by identifying markets where prohibited products
were previously seized or the location of importers that continually violate import requirements.

                                                                         AUDIT REPORT 33601-0012-Ch                7
     doing so. Also, different office locations had different understandings as to when they
     should take actions to close a pathway because SITC upper management had not issued clear
     guidance. We found that one office chose not to take the prescribed action because “doing so
     was a hassle with too much red tape.” In another case, one SITC supervisor repeatedly
     requested guidance from regional management about SITC’s priorities so that he could
     develop a required annual plan to reflect those priorities, but management failed to respond
     to his requests.

     Communication: PPQ performed a quality assurance review (QAR) for 8 of 16 SITC work
     units between August 2008 and January 2010.20 As of November 2011, PPQ did not ensure
     that SITC took action on any of the QAR’s recommendations. For instance, one QAR found
     that the supervisor at a certain office was not using the SITC database to review the activities
     of his officers. The QAR recommended that the supervisor begin reviewing the database.
     The QAR also recommended that he involve other SITC staff to improve the risk analysis
     and targeting process. However, during our site visit to this same office, the Office of the
     Inspector General (OIG) found identical problems over a year later. The supervisor for this
     location stated that he did not know the results of the QAR review and had previously asked
     SITC management about them. However, he had yet to receive any feedback. When we
     asked SITC upper management about this issue, we were told that the national coordinator
     was still evaluating the review.

APHIS national officials expressed a desire to take swift action on many of the problems we
identified in our fieldwork. A Deputy Administrator for PPQ agreed that SITC was not as
productive as it could be, and organized a working group to consider cost savings and
efficiencies in all of PPQ programs, including SITC.

We cooperated with the working group during their research and shared the results of our audit
work with them. We believe that the working group’s recently released recommendations are a
positive step that, in part, will hold its managers and supervisors accountable for the actions of
their staff.21 By taking swift action on the remaining working group recommendations, APHIS
management can be assured that its programs and divisions meet their respective missions in the
most effective and efficient way possible.

Recommendation 1
Implement clear benchmarks and expectations for SITC field staff that will improve the
program’s effectiveness in meeting its mission objectives, and require SITC managers and
supervisors to exercise sufficient oversight to ensure that the unit’s mission is effectively
achieved.


20
   The purpose of the SITC QAR process was to provide a mechanism to evaluate the core components of the SITC
program at the Work Unit level. This review was intended to ensure that operational procedures were executed
consistently across work units with a high degree of efficiency and effectiveness, and in accordance with established
regulations, policies, and procedures.
21
   Improving the Smuggling Interdiction and Trade Compliance (SITC) Program: Plan to Address OIG Draft
Findings, and Revise and Streamline the SITC Program, dated February 8, 2012.

8     AUDIT REPORT 33601-0012-Ch
Agency Response
In the agency’s response, dated June 29, 2012, APHIS officials stated that they agreed with the
recommendation and that PPQ management has already formed a Technical Working Group to
analyze current data and identify patterns of prohibited product movement that present a tangible
threat. The Technical Working Group will have approximately 90 days (June to August 2012) to
produce an initial list of targeted national, regional, and local priorities and products on which
SITC personnel should focus. The Technical Working Group will develop guidance to aid SITC
personnel in making risk-based decisions. PPQ management anticipates that the list of priorities
and practical guidance will be available for use by SITC personnel by October 31, 2012. PPQ
management will review the output of the Technical Working Group, along with recently
updated performance measures to establish clear benchmarks and expectations by October 31,
2012. In a subsequent emailed response on July 12, 2012, APHIS stated it has also provided
detailed checklists, based on existing performance plans, position descriptions and instructions,
to managers and supervisors for use during mid-year and annual performance reviews to assist in
performance management.

OIG Position
We accept APHIS’ management decision.

Recommendation 2

Develop a time-phased action plan to implement the recommendations of the already-established
working group, including procedures for PPQ and SITC upper management to periodically
review reports of SITC’s effectiveness at meeting established benchmarks and expectations.


Agency Response

In APHIS’ response, dated June 29, 2012, and in a subsequent emailed response on July 18,
2012, agency officials stated that they developed a time-phased action plan to implement
changes to the SITC program, and effective on December 31, 2012, PPQ and SITC upper
management will be required to review reports of SITC’s effectiveness at meeting established
benchmarks and expectations at least twice yearly. The regular individual performance reviews
will also be enhanced to include more on these expectations.


OIG Position

We accept APHIS’ management decision.




                                                             AUDIT REPORT 33601-0012-Ch         9
Finding 2: SITC’s Market Surveys Do Not Efficiently Identify Prohibited
Products
Approximately 90 percent of SITC’s key function—market surveys—were not successful at
either seizing a product or generating a trace back to the importer during fiscal year
(FY) 2008 through FY 2011. Of approximately 113,000 market surveys performed during this
period, only about 11,000 (10 percent) were successful in identifying new pathways for the
illegal entry of prohibited products. The Deputy Administrator in charge of SITC stated that this
rate was surprisingly low given SITC’s mission. This occurred, in part, due to SITC’s
management not providing sufficient guidance and direction in performing market surveys.
Instead, SITC management established a policy that allows officers to independently select,
using their own judgment, where and when to perform market surveys. SITC management also
did not require their officers to use specific methods, such as cooperating with other agencies and
varying the location and timing of market surveys, which could increase their success rate. In
addition, SITC did not hold its managers and supervisors accountable since it did not require
them to review their officers’ procedures for market selection, or analyze their effectiveness in
identifying new pathways for prohibited products. As a result of inefficient market selection
strategies, there is an increased risk that prohibited products that already entered the United
States would not be detected by SITC officers and introduce plant disease and pests that could
devastate forests and agriculture.

The Reference Guide suggests, but does not require that its officers cooperate with other
agencies, such as CBP and the PPQ plant inspection stations, when determining which new
markets to target.22 The guide also suggests that officers vary the timing of their marketplace
visits. We determined that one field office we visited that followed the suggestions in the
Reference Guide was nearly three times as effective in seizing prohibited products or in
generating traces.

We analyzed SITC officers’ performance data and compared the number of market surveys to
the number of seizures and traces generated from those market surveys for all 58 office locations
nationwide. Our analysis showed that 4 offices, which applied some of the suggestions listed in
the SITC Reference Guide, had seized or generated traces for prohibited products in 20 percent or
more of the markets they visited. However, the remaining 54 offices were not as successful,
with 30 of those 54 offices being successful in only 10 percent or fewer of the markets visited.
For 14 of those 30 offices, we determined that officers identified prohibited products or
generated traces in only 5 percent or fewer of the markets visited. Overall, our analysis showed
that the SITC offices that cooperated with other agencies, or which varied the location and
timing of their visits were 100 percent more effective in identifying new pathways for prohibited
products than the SITC offices that did not implement the suggestions listed in the SITC
Reference Guide.

We determined that the main reason for this disparity was the methods SITC personnel used to
select the markets they surveyed. SITC management said that they allow officers to determine
their own work load and timing of visits because they are more familiar with the local markets.

22
     SITC Reference Guide, dated November 2009.

10        AUDIT REPORT 33601-0012-Ch
However, SITC management implemented this policy without reviewing the officers’ market
survey results to verify whether this approach was successful at identifying prohibited products
or in generating traces.

       Cooperation with PPQ and CBP

       PPQ plant inspection stations maintain a wealth of data related to imported plant and
       plant product shipments, including the name and address of the importer, and type of
       product being brought into the country. These data lists also show the product’s
       destination—essentially providing a resource for SITC officers to identify new markets
       that are potentially selling prohibited agricultural products. Yet at four of the six SITC
       offices we visited, officials did not inquire about the information PPQ maintains.

       At two ports-of-entry, we obtained plant inspection station lists for the 6 months prior to
       our visits. We compared the importer names and destination addresses from the PPQ
       lists to the names and addresses where SITC officers performed their market surveys.
       SITC officers did not visit 213 of the 254 (84 percent) markets we identified from the
       plant inspection station information. Officers at these ports-of-entry confirmed that they
       did not visit these markets and told us they were not even aware that they existed.
       Supervisors and officers stated that they had not received specific guidance from
       management to obtain PPQ’s importer list, and had not thought to obtain it themselves.
       Nonetheless, they agreed that obtaining and reviewing the PPQ list of importers would
       help them better target their market surveys.

       Similarly, we found that three of the six offices we visited did not require their officers to
       talk to CBP officials who inspect imported shipments. According to SITC officials, CBP
       also maintains data on the importer and destination of imported products. We found that
       officers who worked with CBP officials on leads were up to three times more effective at
       identifying, seizing, or generating traces of prohibited products. For example, we visited
       two larger SITC offices, both located in major cities near busy air and sea ports-of-entry.
       One of these offices, which targeted its market survey selection based on information
       from CBP officials, was successful in approximately 27 percent of its market surveys.
       The other office, which did not obtain CBP information or target its market survey
       selections, was successful in only 8 percent of the market surveys it performed.

       As some SITC offices have demonstrated, its officers can increase their success rates if
       they work with CBP to target their market selections. At two smaller offices, located
       well inland, a SITC office that obtained CBP information was able to identify a
       prohibited product or generate a trace in approximately 16 percent of its market surveys,
       while another office that did not use CBP information, was successful in less than 3
       percent of its market visits.

       Location and Timing of Visits

       Location and timing of market visits also made a difference in success rates. Since SITC
       management did not require officers to use specified methods or follow best practices in
       making market selections, we found inconsistencies in both the type and frequency of


                                                             AUDIT REPORT 33601-0012-Ch           11
       market visits. One SITC office, successful in about 27 percent of its markets visits,
       instructed its officers to not visit flower markets more than once or twice a year. The
       supervisor stated that, historically, they did not identify prohibited products at these
       locations and visiting them was a “waste of the officers’ time.” Instead, the supervisor
       directed his officers towards what he believed to be more high-risk markets. In contrast,
       another supervisor in another office instructed two officers to visit the same flower
       market 49 times between FY 2008 and FY 2010, because this “acted as a deterrent to
       smugglers.” Out of these 49 visits, only 1 seizure occurred. Overall, this office was
       successful in only 8 percent of its market surveys.

       The SITC Reference Guide states that SITC officers should vary their market selections
       and timing of their visits—specifically mentioning weekends, evenings, holidays, and
       early morning hours—to maintain the element of surprise in their surveys. However,
       because this was a suggestion and not a requirement, we found that SITC officers
       performed a majority of their market surveys during regular business hours. We found
       that SITC officers rarely (approximately 4 percent of the time) conducted market surveys
       outside of normal business hours due to concerns with labor restrictions and a limited
       budget for overtime. Since nearly all market visits (96 percent) occurred during regular
       business hours, we were unable to compare the success rates of after-hours market visits.
       Still, while accompanying an officer in the field, we spoke with a known smuggler who
       has since become an informant to SITC. In the presence of the SITC officer, he
       explained that smugglers know to move their prohibited products during evenings,
       weekends, and holidays because they believe that the authorities predictably perform
       their inspections during regular business hours.

SITC management stated that analyzing an office’s effectiveness is an inherent part of being a
manager and supervisor, and they expected such analyses were being performed. Thus, they did
not implement procedures to require this. When we asked the SITC regional managers why they
did not perform any analysis, they stated there are too many variables (i.e., relating to illegal
activities) to allow them to assess the success of any particular office. While productivity rates
may vary, we believe that some kind of measurement is possible, even if it involves simply
comparing the existing rates across different offices. The PPQ Deputy Administrator believed
that the low success rate was an indicator that local offices were not operating effectively, and
that SITC needed to reconsider its procedures. She also stated that PPQ needed to think about
redirecting SITC’s efforts to better identify new pathways for prohibited products, and she
established a working group to report on a plan of action.

On February 8, 2012, the PPQ working group issued its suggested changes to improve SITC’s
ability to identify new pathways for prohibited products. Based on our review of that report, we
believe that the planned recommendations would significantly improve SITC’s effectiveness and
oversight. By implementing the following recommendations, in conjunction with the working
group’s plan of action, we believe that SITC can better ensure that it accomplishes its mission of
identifying new pathways for prohibited products.




12     AUDIT REPORT 33601-0012-Ch
Recommendation 3
Establish minimum requirements and best practices to follow, such as working with and
obtaining information from PPQ’s Plant Inspection Station and CBP officials, when SITC
officers select markets to visit.

Agency Response
In APHIS’ response, dated June 29, 2012, agency officials stated that the newly formed
Technical Working Group will analyze current data and identify patterns of prohibited product
movement that present a tangible threat to U.S. agricultural and natural resources. APHIS will
also examine the minimum requirements and best practices officers and their supervisors use
now to select markets or other venues for survey or monitoring. In a subsequent emailed
response on July 13, 2012, APHIS stated that, from that examination, APHIS will provide
written guidance to officers on how to effectively select markets for survey to ensure APHIS is
effectively monitoring and locating products in commerce that present a tangible risk to U.S.
agriculture and natural resources. This work of revisiting practices will be done twice a year or
more frequently as circumstances dictate. The list of priorities and guidance will be available for
use by SITC personnel by October 31, 2012.

OIG Position
We accept APHIS’ management decision.

Recommendation 4

Develop and implement oversight procedures for regional management and area supervisors to
follow that will ensure their officers adhere to the new SITC requirements and best practices in
selecting markets to visit.


Agency Response

In their response, dated June 29, 2012, APHIS officials stated that PPQ management now
requires regional managers and supervisors to use the new checklists they implemented for
FY 2012 to improve oversight, and to reinforce and explain current duties and expectations.
PPQ management will also update and implement individual performance plans for employees
that reference the new operational priorities and update program-wide benchmarks to reflect the
new priorities by December 31, 2012.


OIG Position

We accept APHIS’ management decision.

                                                            AUDIT REPORT 33601-0012-Ch         13
Recommendation 5

Develop and implement policies and procedures to require SITC managers and supervisors to
obtain and utilize market survey activity analyses to determine their officers’ effectiveness, and
implement appropriate corrective actions if needed.


Agency Response

In APHIS’ response, dated June 29, 2012, agency officials stated that it agreed with this
recommendation and PPQ will develop a standard operating procedure (SOP) by December 31,
2012, to guide managers and supervisors in the use of market survey data, as well as data from
other trace activities including mail and internet searches. PPQ management will then utilize
SNICAS system reports to determine if officers are effectively identifying new or potential
pathways for prohibited products and taking appropriate action to mitigate significant plant and
animal health risks. In addition, PPQ management reinstituted the SITC Quality Assurance
Program (QAP) and conducted two work unit reviews earlier this year (April and May 2012)
with more planned for FY 2013. The QAP reviews provide for an independent perspective on
the effectiveness of SITC activities occurring in selected locations and a means to ensure
operational procedures are executed consistently across work units and in accordance with
established regulations, policies, and procedures.


OIG Position

We accept APHIS’ management decision.


Finding 3: SITC Did Not Take Sufficient Action to Stop Imports of Higher-
Risk Products

Although SITC has an established process to request that CBP close the pathways by which
higher-risk products enter the country, it did not use this process for 96 percent of such higher-
risk products identified by its market surveys during our period of review. Further, when it did
take action to close pathways, SITC’s officers did not make the recommended follow-up visits
for 34 percent of the cases to ensure that the pathways remained closed. This occurred because
SITC management relied on its officers to take the necessary actions, and did not establish
specific requirements for them to follow once higher-risk prohibited products are identified in
the marketplace. In addition, SITC did not require its supervisors to monitor their officers’ work
to verify that pathways were being closed as needed, or to ensure that officers returned to high-
risk markets. Without following up on market seizures, there is an increased risk that the
prohibited product will continue to be imported. For example, we found that SITC did not




14     AUDIT REPORT 33601-0012-Ch
follow-up on higher-risk snails (i.e., rams horn snails) that it seized during market surveys. 23
Over the next 16 months after this type of snail was first seized, other SITC officers continued to
find the same type of snail at 22 different markets nationwide.
According to SITC management and the Reference Guide, when seizing a prohibited imported
product, officers should work with their supervisors to determine whether they need to complete
an Agricultural Request for Action (ARFA) form. The ARFA form alerts CBP officials at the
ports-of-entry to prevent the import of future shipments of either the product or the importer,
thus closing the pathway. The Reference Guide, which provides SITC officers with directions
and instructions for performing their duties, does not describe the criteria to follow when
determining whether to issue an ARFA, or when follow-up visits are needed to ensure that
pathways remain closed.

We analyzed SITC data for all market surveys performed during FY 2008 through FY 2011,
from a list of all product seizures made by SITC officers. From that list we eliminated all
products listed as low-risk, because SITC management does not expect ARFAs for low-risk
products such as soup mixes containing animal products from certain countries. While these are
prohibited, they do not pose a serious threat to people or agriculture. SITC management
instructed their officers to run a trace on these products, but to not waste their time in seizing
them. We also eliminated any seizures related to interstate commerce, as these would not be
imported products. From this, we derived a list of 2,037 higher-risk products seized during that
time period. We then compared our list to the number of ARFAs, and found that SITC issued
80 ARFAs for higher-risk product over the last 4 years.24 The remaining 1,957 higher-risk
products could continue to be imported and thereby still pose a threat to U.S. agriculture if the
plant or plant pests associated with those products get disseminated.

        Issuing ARFAs

        SITC guidance focused on how to handle low-risk products, and did not contain clear
        instructions to its supervisors on the ARFA process.25 For example, SITC management
        provided a list of low-risk prohibited products, but did not maintain a similar list for
        higher-risk products. In addition, the Reference Guide—which officers use as their main
        source for guidance and instruction—does not have a section on how to close a pathway.
        A reference to the ARFA appears in the appendix of the Reference Guide, with
        instructions that officers “should” complete an ARFA when a prohibited product is found
        in commerce and making its way through the ports-of-entry undetected. However, we
        found that this vague language led to confusion among SITC supervisors.

        During our office visits, we found inconsistencies between how different supervisors
        handled ARFAs. At one office, a supervisor only issued ARFAs when there is a national
        recall of a product. Another supervisor stated an ARFA should only be completed when
        a product poses a nationwide risk. A third supervisor informed us that he does not

23
   APHIS considers snails an invasive species, and therefore a higher-risk, because they reproduce rapidly and can
decimate plant cover.
24
   SITC did issue ARFAs for low risk products, but these were not part of our analysis.
25
   SITC Reference Guide, dated November 2009, and memorandum on SITC Regulatory Enforcement of Low Risk
Animal Products in Commerce, dated September 17, 2010.

                                                                      AUDIT REPORT 33601-0012-Ch               15
        complete ARFAs because he has problems getting them timely processed through SITC
        headquarters.

        In general, officers rarely completed ARFAs even when they continued to seize similar
        higher-risk imported prohibited products at other markets, as in the case of the snails.
        We note that some snail species (i.e., the giant African snail) have been known to eat not
        just vegetation, but also building materials. A snail infestation can take years to eradicate
        and cost millions of dollars if undetected.26 SITC management officials stated that they
        trust their officers to determine when to complete an ARFA, but acknowledged that they
        could improve their guidance and oversight of the ARFA process. Without reviewing
        each case, they said that they are unable to determine whether an ARFA should have
        been issued for the 1,957 higher-risk products.

        Conducting Follow-ups

        SITC defines a high-risk market as one where products were previously seized.27 SITC
        management also stated that the only way to measure whether an ARFA was effective is
        to re-visit the markets that had a previous seizure. However, program guidance did not
        require SITC officers to perform follow-up visits to these high-risk markets.

        For all 80 ARFAs that were completed for higher-risk products, we identified the name
        of the market where the product was first seized and then reviewed all market surveys to
        determine if SITC officers revisited that market. Our analysis showed that SITC officers
        did not perform follow-up visits to 27 of the 80 markets (34 percent). We also
        determined that managers and supervisors often do not review their officers’ workload,
        and therefore, would not know whether an officer revisited a market where an ARFA had
        originated.

PPQ and SITC management agreed that officers should have performed follow-up visits to these
markets in order to measure the effectiveness of closing known pathways. While ARFAs can be
used to close pathways for both high-risk and low-risk products, APHIS’ Deputy Administrator
for PPQ stated that SITC’s ARFA policy was meant to ensure that ports-of-entry officials’ did
not waste their time looking for low-risk products. However, we note that this policy does not
address the higher-risk products discussed in this finding. The Deputy Administrator also stated
that, based on OIG’s description of the findings, SITC needs to rethink how it does its work.
During our fieldwork, PPQ established a working group to review and assess SITC operations.
On February 8, 2012, the PPQ working group published a plan of action, with full
implementation planned by March 2013.

As documented in its action plan, PPQ’s working group concluded that SITC officers need clear
guidance and direction on how and when to initiate the process for closing pathways.
Additionally, supervisors need procedures for reviewing all higher-risk product seizures to
decide if an ARFA is necessary. Finally, to ensure that a pathway is closed after issuing an


26
   APHIS New Pest Response Guidelines, Giant African Snails: Snail Pests in the Family Achatinidae, dated April
23, 2007.
27
   SITC Reference Guide, Chapter 5, Procedures – Commerce Sites, page 5-2-1, dated November 2009.

16      AUDIT REPORT 33601-0012-Ch
ARFA, SITC must require officers to perform a follow-up survey. We agree with the working
group’s conclusions.

Recommendation 6

Review the 1,957 seizures made by SITC officers to identify those that still need follow-up, and
issue ARFAs as needed, to close the pathways by which higher-risk prohibited products entered
the country. Require follow-up visits at those markets to ensure those imported higher-risk
products are not still entering the United States.


Agency Response

On June 29, 2012, APHIS officials responded that they agreed with this recommendation and
will follow up, as needed and appropriate, on those 1,957 seizures that fall into their new
category of high risk. In a subsequent response emailed on July 18, 2012, APHIS officials stated
that they will have a determination on the 1,957 seizures and what needs to be done for follow-
up by December 31, 2012. The follow-up will be completed by March 31, 2013.


OIG Position

We accept APHIS’ management decision.


Recommendation 7

Clarify and strengthen SITC instructions on closing pathways, particularly the procedures that an
officer must follow to determine if and when to initiate the process to close a known pathway of
higher-risk prohibited products.


Agency Response

In APHIS’ response, dated June 29, 2012, agency officials stated that they agreed with this
recommendation and PPQ released an updated SOP that provides a clear and systematic process
for developing, reviewing, and issuing an ARFA to CBP. PPQ will finalize a list of operational
priorities based on risk analysis and communicate those expectations and provide guidance to
State Plant Health Directors and SITC managers, supervisors, and field personnel. The SOP will
include guidance to further clarify what actions to take in response to products and pathways that
are determined to be high risk and also what actions to take in response to products and pathways
that are determined to present lower levels of risk. Additionally, by October 31, 2012, PPQ will
finalize a list of operational priorities based on risk analysis and communicate expectations to
SITC personnel.

                                                            AUDIT REPORT 33601-0012-Ch        17
OIG Position

We accept APHIS’ management decision.

Recommendation 8

Establish specific procedures that require SITC officers to perform follow-up surveys at markets
from which higher-risk prohibited products were identified and seized.


Agency Response

In APHIS’ response, dated June 29, 2012, agency officials stated that they will provide new
SOPs by December 31, 2012, for SITC personnel to use when performing follow up surveys at
higher-risk markets.


OIG Position

We accept APHIS’ management decision.


Recommendation 9

Establish a procedure for SITC supervisors to ensure that an ARFA is issued for every higher-
risk imported product seized or a justification for why an ARFA was not issued. Include a
method for supervisors to confirm that the pathway listed on that ARFA was closed.


Agency Response

On June 29, 2012, APHIS officials responded that they agreed with this recommendation and
already published, on May 7, 2012, an SOP with new guidance on issuing ARFAs. SITC
supervisors will be able to confirm that an ARFA was issued or not, and if not, why not.
Additionally, SITC supervisors will be required to periodically survey markets to ensure that
previously identified pathways have been closed.


OIG Position

We accept APHIS’ management decision.



18     AUDIT REPORT 33601-0012-Ch
Finding 4: SITC Lacks Controls Over Its IT System and Related Data

SITC used an unapproved IT system to record its program activities and report its
accomplishments. Specifically, SITC did not ensure its IT system went through the required
Certification and Accreditation (C&A) process, which ensures that a new system is secure and
contains reliable data. The system also contained unsupported field data that was not reviewed
by supervisors for accuracy. This occurred because APHIS management, who are responsible
for ensuring that all systems undergo a C&A, relied upon program staff to notify them of new
systems. Since SITC never informed them of the system’s introduction, they did not know it
existed for at least 3 years. In addition, SITC did not put in place oversight and data controls,
such as second party reviews or standardized reports, to ensure accurate and supportable data
was entered into and derived from its IT system. As a result, when APHIS reported SITC’s
FY 2010 accomplishments to Congress, it overstated the number of violations SITC
recommended by 106 percent.28 In addition, until SITC completes the C&A process, there is
reduced assurance that its IT system is secure from unauthorized access or dissemination of data.

In 2006, SITC implemented an IT system that its officers use to enter the results of their market
surveys, including importer violations of prohibited products. Federal requirements29 and
Department of Agriculture (USDA) Directives30 for IT systems require that new systems go
through a C&A process, and that an agency establish the controls necessary to achieve effective
and reliable reporting. The C&A process becomes even more important in SITC’s case, as its IT
system contains personally identifiable information and sensitive information obtained from
other Federal agencies.

Due to the seriousness of this issue, we issued a Fast Report in April 2011 that recommended
APHIS immediately notify USDA’s Chief Information Officer of an unauthorized system and
begin the C&A process.31 Subsequent to that report, we found that SITC management did not
have sufficient controls to ensure the reliability of data it recorded and reported to APHIS
management.

        Data Recording and Reporting

        All six offices we visited did not maintain documentation of the results of their market
        surveys. Instead, the officers entered the results of their market surveys directly into the
        IT system. This was in accordance with SITC management’s direction to reduce the
        paperwork collected and maintained by its officers. While we understand SITC’s
        intention, we found that there were no compensating controls, such as adequate
        supervisory oversight of officers’ market surveys performed to ensure the information
        entered into its IT system was accurate and complete. We found that three of the five

28
   APHIS’ FY 2012 Budget Explanatory Notes (justifications of proposed funding changes for FY 2012 as well as
explanations of ongoing programs).
29
   OMB Circular A-130, Appendix III, dated November 28, 2000, and Federal Information Security Management
Act of 2002.
30
   Departmental Manual 3555, Certification and Accreditation of Information Systems, dated October 18, 2005.
31
   Fast Report 33601-0012-Ch (1), APHIS Needs to Establish Better Controls Over Information Systems, dated April
7, 2011.

                                                                    AUDIT REPORT 33601-0012-Ch              19
        SITC supervisors we interviewed did not keep track of their officers’ workload or require
        their officers to inform them of the market surveys they planned to perform or the results
        of those surveys.32 Since the supervisors were not aware of the markets their officers
        planned to visit, they were unable to conduct spot checks, either by physically visiting
        markets or reviewing the data entered into the IT system, to verify the officers’ market
        survey results. Due to the lack of documentation and oversight, SITC supervisors were
        unable to provide any assurance on the accuracy of the information in SITC’s IT system.

        SITC also did not have documented procedures to ensure program reports obtained from
        its IT system were accurate, supported, and consistent. Program staff informed us that
        each time SITC needs an IT system report, an analyst runs a custom query of the system
        database. However, these custom queries were not done consistently across offices
        because SITC did not establish a methodology for gathering its reporting data. We also
        found that SITC did not have documented procedures to require a second party review of
        system reports.

        Using these inconsistent query methods, SITC created a report on the number of
        violations they referred to APHIS’ Investigative Enforcement Services (IES) Division.
        Without a second party review in place to ensure the report data was accurate, SITC over-
        stated its FY 2010 accomplishments to APHIS management. The report showed that
        SITC recommended 317 violations to IES, even though SITC data recorded 154
        violations recommended—an overstatement of 106 percent. APHIS management then
        used that report for inclusion in APHIS’ annual budget report to Congress. After its
        release, we requested the same report from the IT system, however SITC officials were
        unable to recreate the same accomplishment report or provide support for the number of
        violations reported. SITC officials attributed the problem to a clerical error, but we
        believe it could also be attributed to the lack of adequate second party reviews and to the
        other issues as cited above.

        Data Security

        APHIS’ Information Technology Division (ITD) was not aware that SITC developed and
        implemented a new system in 2006, because SITC never informed them that the system
        existed. APHIS’ ITD is responsible for ensuring all new IT systems are reviewed for
        security requirements through the C&A process.33 The C&A process is meant to assure,
        among other things, that a system is not vulnerable to unauthorized use or data
        dissemination. ITD staff informed us that they did not have an automated tool to search
        all APHIS’ servers to detect the implementation or use of a new IT system. Instead, ITD
        relied upon program staff to notify them before a new system is implemented. PPQ
        management said that they did not inform APHIS’ ITD because the system was
        developed “in-house” and, therefore, did not think the C&A process was required. Thus,
        SITC has no assurance that its data is secure from unauthorized use or dissemination.



32
  Two of the offices we visited were under the same supervisor.
33
  Federal Information Processing Standards Publication 200, Minimum Security Requirements for Federal
Information and Information Systems, dated March 2006.

20      AUDIT REPORT 33601-0012-Ch
       In APHIS’ response, dated April 14, 2011, to our Fast Report, ITD staff agreed to
       immediately notify USDA’s Office of the Chief Information Officer about the system and
       complete the C&A process. ITD staff also agreed to review all of APHIS’ network
       servers to develop a complete inventory of IT systems and prevent the further use of any
       unapproved systems. In November 2011, PPQ management informed us that they started
       the C&A process but were behind schedule. The PPQ Deputy Administrator explained
       that she had had discussions regarding whether SITC should keep the current system or
       merge it with another system that is already approved. While this could be a viable
       solution, until the C&A process is complete or a decision is made to eliminate it, the
       system is still not secure and remains vulnerable to unauthorized access and data
       dissemination.

In discussions with PPQ and SITC management, they agreed that SITC needs to implement
greater oversight over its officers and the data they enter into its IT system, and noted that PPQ
had established a working group to improve SITC’s supervisory oversight. They also stated that
SITC is in the process of drafting new procedures to ensure the accuracy of its data. The PPQ
Deputy Administrator agreed that SITC was unable to replicate the data reported to Congress,
and said that in the future it will document the methodologies used to generate system reports.

On February 8, 2012, PPQ issued its working group report to improve SITC’s supervisory
oversight and data integrity. The working group recommended that SITC develop written
standard operating procedures for SITC supervisors, officers and analysts to follow in entering
and reviewing data in its IT system. With the implementation of the following
recommendations, in conjunction with PPQ’s planned actions, we believe that SITC will be able
to more effectively manage its workforce and accurately report its accomplishments.

Recommendation 10

Immediately notify the USDA’s Chief Information Officer about the existence of SITC’s IT
system, complete the C&A process, and implement interim procedures to protect data until the
process is complete.


Agency Response

In APHIS’ response to the Fast Report, dated April 14, 2011, agency officials concurred with the
recommendation and stated that APHIS' ITD has already notified USDA’s Chief Information
Officer (OCIO) regarding the existence of SITC’s IT system. Specifically, the IT system was
included in the APHIS Enterprise Data Center Migration Plan submitted to the OCIO on March
23, 2011, and a Unique Project Identifier number was requested from OCIO on April 1, 2011, so
that the new IT system could be recognized as part of APHIS’ IT portfolio. APHIS officials also
stated that its ITD will continue to work with the Department to complete the C&A process
which, as of June 2012, was with the OCIO awaiting final clearance. APHIS officials further
stated that they had established, in October 2006, control procedures to protect the data, restrict



                                                            AUDIT REPORT 33601-0012-Ch          21
access, and monitor account access every 6 months and deactivate an account when a user leaves
SITC.


OIG Position

We accept APHIS’ management decision.


Recommendation 11

Require IT department staff to review APHIS’ servers to identify unauthorized systems until
APHIS can implement an automated tool to prevent and detect new systems. If such systems are
found, either remove the systems or complete the certification and accreditation process.


Agency Response

In APHIS’ response to the Fast Report, dated April 14, 2011, agency officials concurred with the
recommendation and stated that APHIS' ITD will review all APHIS servers using their current
network scanning tools to develop a complete inventory of systems and identify any
unauthorized systems, by April 30, 2011. As part of this process, ITD will work with the APHIS
IT Leadership Advisory Committee and further direct the program units to report all servers and
systems that have not been previously identified. This will be completed by June 30, 2011.
After this date, any systems that are "discovered" by ITD that have not been previously identified
will be removed from the network. ITD will continue to evaluate existing tools to determine
what automated processes can be implemented to detect new systems. Further, ITD will evaluate
the costs and deployment timelines for additional tools that could be used to provide an
automated process to detect and restrict the deployment of new servers and systems within
APHIS. Additionally, ITD is currently in the process of refining the existing software approval
process by updating its SOPs to more clearly indicate the roles and responsibilities of program
units and ITD staff in the requesting, approving and deployment of new IT systems.
In a subsequent emailed response on July 24, 2012, APHIS officials stated that APHIS ITD
worked in conjunction with the APHIS IT Leadership Advisory Committee to review all existing
systems within APHIS and found no unauthorized IT systems requiring C&A or removal from
the network. APHIS officials further stated that APHIS purchased the Trustwave Security
Information and Event Management system (SIEM). This appliance will allow APHIS to
centrally store logs from various applications and operating systems; create filtering and alerting
rules; and report in real time the security status or compliancy state of any system included in the
SIEM project. The SIEM has been installed and is currently in the process of being fine-tuned to
ensure reports and alerts are configured properly. APHIS is building use-cases based on
system/application type to make certain all relevant data is logged and sent to the SIEM. This
includes system servers, security devices and networking components. Standard Operating
Procedures are being drafted to define roles and responsibilities for IT Staff. The use of this tool
will allow APHIS to monitor the APHIS network and alert ITD to unusual activity that could be

22     AUDIT REPORT 33601-0012-Ch
the result of an unauthorized system. This tool is scheduled for implementation for by the end of
FY 2012.


OIG Position

We accept APHIS’ management decision.


Recommendation 12

Implement policies and procedures to ensure that accurate data is entered into SITC’s IT system
by its officers, and subsequently verified by their supervisors.


Agency Response

In APHIS’ response, dated June 29, 2012, agency officials stated that it agreed with this
recommendation and already added a data integrity and quality control report feature to SITC’s
IT system. The report feature allows supervisors to query the system for recently added data (by
work unit during a specific time frame) in the following categories: locations added; surveys
conducted; seizures; traces issued; traces received; and traces closed. In addition, PPQ
management has directed its IT unit to develop a check-box function, similar to the one in its
Work Accomplishments Database system to ensure that supervisors acknowledge when they
have reviewed their officers’ data for accuracy. A new SOP on data integrity and quality control
for the IT system will be issued for all users by October 31, 2012, with additional details on
supervisors' responsibilities.

OIG Position

We accept APHIS’ management decision.


Recommendation 13

Implement policies and procedures to ensure APHIS analysts document the methodology used in
generating system reports to ensure consistency. Create additional procedures to verify the
accuracy of those reports through a second party review to ensure the data is accurate and
supported.




                                                           AUDIT REPORT 33601-0012-Ch         23
Agency Response

On June 29, 2012, APHIS officials responded that they agreed with this recommendation and the
PPQ Deputy Administrator has formed a team to develop a strategy to consolidate operational
analytical resources (systems and personnel) in a centralized analytical unit. This effort will
result in the development of standard analytical methodologies and consistent and accurate
analytical reports that address PPQ's highest mission priorities. In a subsequent emailed
response on July 12, 2012, APHIS officials confirmed that the methodologies will be completed
by the end of FY 2013. PPQ will also issue a SOP by December 31, 2012, on data integrity and
quality control for the IT system database, with additional details on supervisors' responsibilities.
All supervisors will review reports and identify any anomalies that would indicate
inconsistencies in the data and resolve them.
The Technical Working Group tasked with establishing operational priorities for SITC will, by
October 1, 2012, work in a collaborative manner with any analysts designated to support SITC.
This Technical Working Group will continue to work after its initial priorities and guidance are
developed to request standard queries of data systems and analyses reports that will be used to
continuously refine SITC' s focus.

OIG Position

We accept APHIS’ management decision.




24     AUDIT REPORT 33601-0012-Ch
Scope and Methodology
Our audit covered SITC activities that occurred from FY 2008 through FY 2011. We performed
our audit at APHIS’ PPQ and SITC Headquarters in Riverdale, Maryland, the western regional
office in Fort Collins, Colorado, and the eastern regional office in Raleigh, North Carolina. We
judgmentally selected 6 of the 58 SITC field offices to visit in Arizona (1), California (1),
Connecticut (1), Florida (2), and New York (1) between March and May 2011. We also
contacted five SITC managers and supervisors responsible for the States of Nebraska, Iowa,
Ohio, Pennsylvania and Tennessee. We conducted our audit fieldwork from October
2010 through February 2012.

According to reports prepared by SITC’s program analysts, between FY 2008 through
FY 2011 there were over 113,000 market surveys performed by approximately 100 SITC officers
nationwide. Based on those market surveys, SITC officers seized about 6,600 prohibited
products. We determined that 2,037 were related to higher-risk imported products. Those
market surveys also generated over 15,000 traces to the importer or subsequent customer. The
products seized and traces generated resulted in approximately 80 ARFAs for higher-risk
pathways and led to over 600 violations recommended to IES for prosecution.

We used information from SITC’s IT database system for choosing field offices to review and
performing our analysis as presented in this report. Although our limited testing did not disclose
any issues with the reliability of the information on the number of seizures and violations, SITC
did not maintain support for the number of surveys or traces they performed. Due to the lack of
system security, data controls, and oversight, we do not provide any assurance on SITC’s IT
system or the data maintained within that system.

To accomplish our audit objectives, we:

·      Interviewed APHIS PPQ and SITC Headquarters officials to determine SITC’s roles and
       responsibilities related to detecting imported prohibited agricultural products;

·      Reviewed and assessed the effectiveness of regulations, guidance and instructions
       provided to SITC officers and other personnel involved in the SITC unit;

·      Assessed SITC’s coordination with IES in prosecuting importers of prohibited products,
       as well as obtaining information from PPQ plant inspection stations and CBP officials
       stationed at the ports-of-entry;

·      Evaluated program priorities and other resources used to carry out SITC’s mission;

·      Accompanied SITC officers during their planned market surveys at 47 neighborhood
       markets, distribution centers, and commercial warehouses;

·      Evaluated the results of prior APHIS PPQ audits (i.e., OIG and GAO) and agency reports
       (i.e., APHIS’ Quality Assurance Reviews and annual budget reports);


                                                            AUDIT REPORT 33601-0012-Ch         25
·      Reviewed IES cases of unlawful entry and domestic distribution of prohibited foreign
       agricultural products to determine SITC’s involvement and assistance with IES cases and
       the prosecution of violations;

·      Interviewed APHIS’ IT division staff and reviewed USDA’s warehouse of approved IT
       systems for APHIS; and

·      Analyzed SITC’s IT system database to determine the reliability, quality, completeness
       and reasonableness of data. Although our initial testing of the data did not reveal any
       significant data reliability issues, we stopped all testing due to the risks associated with
       the system not having the C&A process completed by APHIS’ IT division.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




26     AUDIT REPORT 33601-0012-Ch
Abbreviations
APHIS ........................Animal and Plant Health Inspection Service
ARFA.........................Agricultural Request for Action
C&A...........................Certification and Accreditation
CBP ............................Customs and Border Patrol
DHS............................Department of Homeland Security
FY ..............................Fiscal Year
GAO...........................Government Accountability Office
IES..............................Investigative and Enforcement Services
IT................................Information Technology
ITD.............................Information Technology Division
OCIO………………..Office of the Chief Information Officer
OIG ............................Office of Inspector General
OMB ..........................Office of Management and Budget
PPQ ............................Plant Protection and Quarantine program
QAP…………………Quality Assurance Program
QAR…………………Quality Assurance Review
SEIM ..........................Trustwave Security Information and Event Management system
SITC...........................Smuggling, Interdiction, and Trade Compliance
SOP…………………Standard Operating Procedure
U.S. ............................United States
USDA.........................Department of Agriculture




                                                                    AUDIT REPORT 33601-0012-Ch   27
       Exhibit A: SITC National Organizational Chart1

                                          SITC National Organizational Chart

                 PPQ WR                                             PHP                                               PPQ ER
                 Director                                         Director                                            Director



                WR Asst                                            QPAS                                                ER Asst
              Reg. Directors                                      Director                                          Reg. Directors


                      SITC            WR SITC                                                  ER SITC              SITC ASA
                     Analyst                                   SITC National
                                   Senior Program                                           Senior Program
                                      Manager                   Coordinator                    Manager                SITC
                       SITC                                                                                         Program
                     Program                                                                                        Assistant
                     Assistant        WR SITC                                                  ER SITC
                                      Program                                                  Program
                                      Manager                                                  Manager




  SPHD’s               SPHD’s         SPHD’s         SPHD’s                    SPHD’s        SPHD’s            SPHD’s             SPHD’s
  SITC CA              SITC TX        SITC WA        SITC HI                   SITC NJ       SITC WV           SITC FL            SITC GA



 SITC Area            SITC Area      SITC Area      SITC Area                  SITC Area     SITC Area         SITC Area          SITC Area
  Manager              Manager        Manager        Manager                    Manager       Manager           Manager            Manager
    CA                   TX             WA             HI                         NJ             IL               FL                 GA


                                                                                                                                SITC
    SITC                SITC            SITC                                     SITC           SITC             SITC           PSA
 Supervisors         Supervisors     Supervisors                              Supervisors    Supervisors      Supervisors
     (3)                 (2)             (1)          SITC                        (3)            (1)              (3)
                                                     Officer

SITC                 SITC          SITC                                      SITC           SITC             SITC
PSA                  PSA           PSA                                       PSA            PSA              PSA


                                                       SITC
                                                    Technicians
   SITC                SITC            SITC                                     SITC           SITC             SITC                SITC
  Officers            Officers        Officers                                 Officers       Officers         Officers            Officers




------------ Communication Lines
_______ Direct Supervisor




       1
           SITC Reference Guide, Ch. 2, Program Organization, p. 2-1-3, dated July 2007.
Agency’s Response




                  USDA’S
         ANIMAL AND PLANT HEALTH
            INSPECTION SERVICE
         RESPONSE TO AUDIT REPORT




                        AUDIT REPORT 33601-0012-Ch   29
                        June 29, 2012
United States
Department of
                         MEMORANDUM
Agriculture

Animal and Plant
                         TO:                Gil H. Harden
Health Inspection                           Assistant Inspector General
Service
                                              for Audit
Washington, DC
20250
                         FROM:               Kevin Shea /s/
                                             Acting Administrator

                         SUBJECT: APHIS Response and Request for Management
                                  Decisions on OIG Report, “Effectiveness of the Smuggling,
                                  Interdiction, and Trade Compliance Unit” (33601-12-CH)

                         Thank you for the opportunity for APHIS to review and comment on the Draft
                         Report for the above titled audit. APHIS appreciates the audit, and has undertaken
                         several self-initiated actions to improve the vital function of our Smuggling,
                         Interdiction, and Trade Compliance (SITC) Unit, as well as address the
                         Recommendations in the OIG Report.

                         Recommendation 1: Implement clear benchmarks and expectations for SITC
                         field staff that will improve the programs’ effectiveness in meeting its mission
                         objectives, and require SITC managers and supervisors to exercise sufficient
                         oversight to ensure that the unit’s mission is effectively achieved.

                         APHIS Response: APHIS agrees with this Recommendation. To ensure SITC
                         activities are focused on finding and mitigating significant plant and animal health
                         risks not intercepted by Agriculture Quarantine Inspection (AQI) operations at ports
                         of entry, Plant Protection and Quarantine (PPQ) management formed a Technical
                         Working Group to analyze current data and identify patterns of prohibited product
                         movement that present a tangible threat—a threat that poses a high risk of pests
                         entering the country, becoming established, and causing economic harm to U.S.
                         agricultural and natural resources.

                         The Technical Working Group will have approximately 90 days (June to August
                         2012) to produce an initial list of targeted national, regional and local priorities and
                         products on which SITC personnel should focus. The Technical Working Group
                         will develop guidance to aid SITC personnel in making risk-based decisions. PPQ
                         management anticipates that the list of priorities and practical guidance will be
                         available for use by SITC personnel by October 31, 2012. PPQ management will
                         review the output of the Technical Working Group, along with recently updated
                         performance measures to establish clear benchmarks and expectations by October
                         31, 2012.


                    Safeguarding American Agriculture
                                                                                          Federal Relay Service
                    APHIS is an agency of USDA’s Marketing and Regulatory Programs        (Voice/TTY/ASCII/Spanish)
                    An Equal Opportunity Provider and Employer                            1-800-877-8339
In addition, all of PPQ, including SITC, is undergoing a major organizational
restructuring1 that will clarify reporting lines and strengthen supervisory oversight.
The SITC Management Team represents three areas: Headquarters (National
Coordinator), and the Eastern and Western Regions (Regional Program Managers).
However, as a result of the restructuring, expected to be completed by October 1,
2012, and based on recommendations from the SITC Board,2 SITC national
program management, and field program staff, will be organized wholly under
PPQ’s new Field Operations functional area. Also as a part of this restructuring,
SITC field personnel will be managed by the State Plant Health Director in their
home state. This model is successfully used by other programs in PPQ and will
give State Plant Health Directors an increased role not only in determining AQI
priorities for their state but also in directing the activities of all personnel funded
through AQI user fees, including PPQ SITC personnel. These changes should
greatly simplify national coordination, eliminate barriers to communication, and
ensure effective oversight of the program.

For a description of action items and targeted due dates of key milestones for the
SITC program, see the Action Plan in response to Recommendation 2.

Recommendation 2: Develop a time-phased action plan to implement the
recommendations of the already-established working group, including
procedures for PPQ and SITC upper management to periodically review
reports of SITC’s effectiveness at meeting established benchmarks and
expectations.

APHIS Response: APHIS agrees with this Recommendation. We have developed
a time-phased Action Plan to implement changes to the SITC program. The action
items are detailed in the chart below:




  PPQ will be restructured under three Core Functional Areas: Field Operations, Policy and
1

Management, and Science and Technology.
2
  The SITC Board was established January 2, 2012 with the responsibilities of providing day-to-day
national leadership of the SITC program, overseeing the immediate changes made by the SITC
Working Group in response to OIG’s initial feedback, and providing guidance over the next six
months (January to June, 2012) on how to bring SITC in line with other PPQ efforts centering
around modernization, and maximizing the use of diminishing resources.
ACTION PLAN for IMPLEMENTATION of CHANGES to the SITC
PROGRAM
                   ACTION ITEM                            DUE DATE
  · Conduct quality assurance reviews of two work units. Completed May
                                                                   10, 2012
   ·   Alert the SITC workforce of impending organizational        Completed May
       and operational changes.                                    25, 2012
   ·   Create a transition team to carry on the SITC Board’s       July 16, 2012
       work into the new fiscal year
   ·   Notify APHIS Labor Management Relations and the             August 31, 2012
       employee unions of impending organizational and
       operational changes.
   ·   Finalize list of operational priorities based on risk       October 31, 2012
       analysis completed by the Technical Working Group and
       communicate expectations and guidance to State Plant
       Health Directors and SITC personnel.
   ·   Develop position descriptions for all reprogrammed          October 31, 2012
       supervisors and employees. Incorporate references to
       operational priorities in the FY13 plans.
   ·   Review and revise all other SITC Position Descriptions      October 31, 2013
       and all individual performance plans.
   ·   Begin to implement organizational and operational           October 31, 2012
       changes.
   ·   Develop and implement SOPs regarding strategic use of       December 31,
       market survey analyses and oversight of market survey       2012
       activities.
   ·   Finalize benchmarks and expectations to gauge               December 31,
       effectiveness of program performance in light of new        2012
       operational priorities.
   ·   Provide training on new responsibilities for State Plant    December 31,
       Health Directors who are now involved in the SITC           2012
       program. This includes overview of the SITC National
       Information, Communication and Activity System
       (SNICAS).
   ·   Conduct periodic quality assurance reviews of work          October 1 2012 –
       units (at least two work units per year).                   September 30
                                                                   2013
   ·   Conduct semi-annual performance reviews for                 September 2012,
       employees (standard mid-year and annual reviews)            April 2013,
       [April 2012 completed].                                     September 2013
   ·   Work on updating and implementing training for PPQ          September 2012–
       field personnel as needed. This will include training for   October 2013
       staff new to PPQ SITC, staff new to non-SITC PPQ
       work and staff who need refresher training for any PPQ
       work.
   ·   Review all existing SITC documents (SOPs, guidance,         October 31, 2013
       etc.) and determine what needs to be updated to reflect
       new organizational structure and priorities. Create
       schedule to complete revisions and issue cancellations.

Recommendation 3: Establish minimum requirements and best practices
to follow, such as working with and obtaining information from PPQ’s
Plant Inspection Station and CBP officials, when SITC officers select
markets to visit.

APHIS Response: APHIS agrees with this Recommendation. The newly formed
Technical Working Group, described in response to Recommendation 1, will
analyze current data and identify patterns of prohibited product movement that
present a tangible threat to U.S. agricultural and natural resources. The data will be
gleaned from Plant Inspection Stations, APHIS’ Emergency Action Notifications,
CBP databases and other sources, such as PPQ’s SNICAS system. The Technical
Working Group will produce an initial list of targeted national, regional and local
priorities and products on which SITC personnel should focus. The priorities will
include markets and other potential risks. The list of priorities and guidance will be
available for use by SITC personnel October 31, 2012. These priorities will be
revisited and updated at least twice a year.

Recommendation 4: Develop and implement oversight procedures for
regional management and area supervisors to follow that will ensure their
officers adhere to the new SITC requirements and best practices in selecting
markets to visit.

APHIS Response: APHIS agrees with this Recommendation. PPQ management
developed and implemented checklists in FY 2012 to improve oversight. These
checklists reinforce and explain current duties and expectations. PPQ management
will also update and implement individual performance plans for employees that
reference the operational priorities developed by the Technical Working Group by
October 31, 2013 and update program-wide benchmarks to reflect the new priorities
by December 31, 2012.

In addition, as stated in response to Recommendation 1, PPQ, including SITC, is
undergoing a major organizational restructuring that will clarify reporting lines and
strengthen supervisory oversight. This effort will move the management of SITC
personnel under the State Plant Health Director in their state. This model is
successfully used by other programs in PPQ and will give the State Plant Health
Directors an increased role not only in determining AQI priorities for their state but
also in directing the activities of all personnel funded through AQI user fees,
including PPQ SITC personnel, to ensure effective and efficient state-level AQI
operations. Interim guidance for supervisors was provided in April of 2012 in the
form of checklists based on current position descriptions, and performance plans.
Clear expectations for effective oversight will be written into performance plans for
all SITC supervisors and managers by October 31, 2013. Supervisors and State
Plant Health Directors with SITC responsibilities will be provided training by
December 31, 2012.

Recommendation 5: Develop and implement policies and procedures to
require SITC managers and supervisors to obtain and utilize market survey
activity analyses to determine their officers’ effectiveness, and implement
appropriate corrective actions if needed.
APHIS Response: APHIS agrees with this Recommendation. In addition to the
steps outlined in response to Recommendations 1 through 4 (see especially the
Action Plan in response to Recommendation 2) to enhance supervisory oversight
and improve overall program performance, PPQ will develop a standard operating
procedure (SOP) to guide managers and supervisors in the use of market survey
data, as well as data from other trace activities including mail and internet searches,
from the SNICAS system to determine if officers are effectively identifying new or
potential pathways for prohibited products and taking appropriate action to mitigate
significant plant and animal health risks. This SOP, which will be developed and
implemented by December 31, 2012, will take into consideration the list of targeted
national, regional, and local operational priorities developed by the Technical
Working Group.

PPQ supervisors3 and State Plant Health Directors are in the best position to ensure
that SITC officers are effective and to take corrective action with their officers
when needed. In addition, PPQ management reinstituted the SITC Quality
Assurance Program (QAP) and conducted two work unit reviews earlier this year
(April and May 2012). The QAP provide for an independent perspective on the
effectiveness of SITC activities occurring in selected locations and a means to
ensure operational procedures are executed consistently across work units and in
accordance with established regulations, policies, and procedures. The QAP
reviews are conducted by a team of PPQ employees and led by the PPQ National
Quality Assurance Coordinator. More QAP reviews are planned for FY 2013.

Recommendation 6: Review the 1,957 seizures made by SITC officers to
identify those that still need follow-up, and issue ARFAs as needed, to close the
pathways by which higher-risk prohibited products entered the country.
Require follow-up visits at those markets to ensure those imported higher-risk
products are not still entering the United States.

APHIS Response: APHIS agrees with this Recommendation. As stated in the
May 15, 2012 meeting with your staff, we will follow up on, as needed and as
appropriate, those seizures within the 1,957 that fall into the new category of high
risk. In a memo dated May 25, 2012, the PPQ SITC Board officially announced the
decision (approved by the PPQ Deputy Administrator) to “refocus PPQ SITC
efforts on detecting and mitigating the introduction or movement of high-risk
products that present a tangible threat to US agriculture and natural resources.” In
recent meetings, the PPQ Leadership Team4 defined “tangible threat” or high risk as
the likelihood of pests entering the country, becoming established, and causing
economic harm to U.S. agricultural and natural resources.


3
  Under the new SITC structure, some SITC personnel will report directly to the State Plant Health
Director in their State; others may report to a supervisor who reports to the State Plant Health
Director. The particulars in each State will depend on the size of the workforce and staffing
situation in each location.

.
As mentioned earlier, PPQ established a Technical Working Group to analyze
current data and identify patterns of prohibited product movement that present a
“tangible threat;” i.e., that pose a high risk of pests entering the country, becoming
established, and causing economic harm to U.S. agricultural and natural resources.
These pathways and products will become the primary focus for SITC (and other
parts of PPQ as well). Previous SITC program documentation identified only
certain lower risk products, which has caused ambiguity within the program about
the significance of non-listed products and led to conclusions in and outside SITC
that everything not identified as lower risk should be considered higher risk and
merited follow-up. As mentioned in responses to previous Recommendations, the
national, regional, and local operational priorities developed by the Technical
Working Group will be implemented by October 31, 2012.

PPQ acknowledges that this shift in focus may appear to contradict our regulations
that are predicated on the idea that a prohibited product is a risky product. To
clarify, all prohibited products will continue to be seized. However the
determination to take further action – including investigatory traces or the issuance
of Agricultural Request for Action (ARFAs) – will be predicated on the plant and
animal pest or disease risk presented by the situation.

In terms of closing pathways, on May 7, 2012, PPQ released an updated SOP that
provides a clear and systematic process for developing, reviewing, and issuing an
ARFA to Customs and Border Protection (CBP). The ARFA SOP details the
responsibility each party has in the preparation, review, and issuance of an ARFA,
to include the specific time frames for the completion of each step of the process.
This streamlined operational change will ensure that appropriate and timely actions
to mitigate harms associated with higher risk products and pathways are
consistently taken by SITC, including informing CBP of the need to close a specific
pathway.

Recommendation 7: Clarify and strengthen SITC instructions on closing
pathways, particularly the procedures that an officer must follow to determine
if and when to initiate the process to close a known pathway of higher-risk
prohibited products.

APHIS Response: APHIS agrees with this Recommendation. As mentioned in the
response to Recommendation 6, PPQ released an updated SOP that provides a clear
and systematic process for developing, reviewing, and issuing an ARFA to CBP.

1
 The PPQ Leadership Team is composed of the Senior Leaders of each major PPQ
program area, including the Deputy Administrator’s office; the Center for Plant
Health Science and Technology; the Eastern and Western Regional Offices;
Emergency and Domestic Programs; Plant Health Programs; the Professional
Development Center; and Resource Management and Planning Services
Since the implementation of this SOP on May 7, 2012, PPQ has issued 14 ARFAs
to CBP – a significant increase since only 80 ARFAs were issued in the previous 4
years. Additionally, by October 31, 2012, PPQ will finalize a list of operational
priorities based on risk analysis completed by the Technical Working Group and
communicate expectations and provide guidance to State Plant Health Directors and
SITC personnel. This will include guidance to further clarify what actions to take
in response to products and pathways that are determined to be high risk and also
what actions to take in response to products and pathways that are determined to
present lower levels of risk.
Recommendation 8: Establish specific procedures that require SITC officers to
perform follow-up surveys at markets from which higher-risk prohibited
products were identified and seized.

APHIS Response: APHIS agrees with this Recommendation. We will provide the
suggested guidance to SITC personnel in the SOP described in Recommendation 5.

Recommendation 9: Establish a procedure for SITC supervisors to ensure that
an ARFA is issued for every higher-risk imported product seized or a
justification for why an ARFA was not issued. Include a method for
supervisors to confirm that the pathway listed on that ARFA was closed.

APHIS Response: APHIS agrees with this Recommendation, which is addressed
by the ARFA SOP, issued May 7, 2012 and described in Recommendation 6. SITC
supervisors will be able to confirm that an ARFA was issued or not, and if not, why
not. Additionally, APHIS will periodically survey markets to ensure identified
pathways have been closed.

Recommendation 10: Immediately notify the USDA’s Chief Information
Officer about the existence of SITC’s IT system, complete the C&A process,
and implement interim procedures to protect data until the process is
complete.

APHIS Response: In APHIS’ response to the Fast Report, dated April 15 2011,
agency officials concurred with the recommendation, stating that APHIS'
Information Technology Division (ITD) has already notified the USDA Office of
the Chief Information Officer (OCIO) regarding the existence of SITC’s IT system
(SNICAS). Specifically, SNICAS was included in the APHIS Enterprise Data
Center Migration Plan, submitted to the OCIO on March 23, 2011, and a Unique
Project Identifier number was requested from OCIO on April 1, 2011, so that
SNICAS could be recognized as part of the APHIS portfolio. APHIS also stated
that its ITD will continue to work with the Department to complete the C&A
process (as of June 2012, the package is currently with OCIO awaiting final
clearance). APHIS further stated that in October 2006, it established control
procedures to protect the data, restrict access, monitor account access every 6
months, and deactivate an account when a user leaves PPQ SITC.
OIG Position: We accept APHIS’ management decision.

Recommendation 11: Require IT department staff to review APHIS’ servers to
identify unauthorized systems until APHIS can implement an automated tool
to prevent and detect new systems. If such systems are found, either remove
the systems or complete the certification and accreditation process.

APHIS Response: In APHIS’ response to the Fast Report, dated April 15, 2011,
agency officials concurred with the recommendation, stating that APHIS' ITD will
review all APHIS servers, using the network scanning tools that we have available
at this time to develop a complete inventory of systems and identify any
unauthorized systems by April 30, 2011. As part of this process, ITD will work
with the APHIS IT Leadership Advisory Committee and further direct the program
units to report all servers and systems that have not been previously identified. This
will be completed by June 30, 2012. After this date, any systems that are
“discovered" by ITD that have not been previously identified will be removed from
the network. ITD will continue to evaluate existing tools to determine what
automated process can be implemented to detect new systems. Further, ITD will
evaluate the costs and deployment timelines for additional tools that could be used
to provide an automated process to detect and restrict the deployment of new
servers and systems within APHIS. Additionally, ITD is currently in the process of
refining the existing software approval process by updating the current Standard
Operating Procedures to more clearly indicate the roles and responsibilities of the
program units and ITD in the requesting, approving, and deployment of new
systems.

OIG Position: We accept APHIS’ management decision.

Recommendation 12: Implement policies and procedures to ensure that
accurate data is entered into SITC’s IT system by its officers, and subsequently
verified by their supervisors.

APHIS Response: APHIS agrees with this Recommendation. In February 2012, a
data integrity and quality control report feature was developed and programmed
into the SNICAS system. The report feature allows supervisors to query the system
for recently added data (by work unit during a specific time frame) in the following
categories: locations added, surveys conducted, seizures, traces issued, traces
received, and traces closed. In addition, PPQ management has directed its IT unit to
develop a check-box function, similar to the one in the Work Accomplishments
Database (WADs) to ensure that supervisors acknowledge when they have
reviewed their officers’ data for accuracy. The programming work should be done
by August 31, 2012. A new SOP on data integrity and quality control for the
SNICAS system will be issued for all SNICAS users, with additional details on
supervisors’ responsibilities, effective by October 31, 2012.
Recommendation 13: Implement policies and procedures to ensure APHIS
analysts document the methodology used in generating system reports to
ensure consistency. Create additional procedures to verify the accuracy of
those reports through a second party review to ensure the data is accurate and
supported.

APHIS Response: APHIS agrees with this Recommendation. In an effort to
enhance data analysis activities used by PPQ to inform program strategy and
operations, the PPQ Deputy Administrator has formed a team to develop a strategy
to consolidate operational analytical resources (systems and personnel) in a
centralized analytical unit. This effort will result in the development of standard
analytical methodologies and consistent and accurate analytical reports that address
PPQ’s highest mission priorities. The team has begun work as of June 12, 2012
but there is no timetable yet for implementation. In the meantime, PPQ SITC is
working, as stated in the response to Recommendation 12, on a new SOP on data
integrity and quality control for the SNICAS database that will be issued for all
SNICAS users, with additional details on supervisors’ responsibilities, effective
October 31, 2012. All supervisors will review reports and identify any anomalies
that would indicate inconsistencies in the data and resolve them.
The Technical Working Group described in several of the responses above that is
tasked with establishing operational priorities for SITC that will eventually work in
a collaborative manner with any analysts designated to support SITC. For now, that
consists of the approximately eight SITC analyst positions in the field and at HQ.
This Technical Working Group, in some form to be determined by October 1, 2012,
will continue to work after its initial priorities and guidance are developed to
request standard queries of data systems and analyses reports that will be used to
continuously refine SITC’s focus.
Informational copies of this report have been distributed to:

   Government Accountability Office                             1

   Office of Management and Budget                              1

   Office of the Chief Financial Officer
       Director, Planning and Accountability Division           1
To learn more about OIG, visit our website at
www.usda.gov/oig/index.htm
How To Report Suspected Wrongdoing in USDA Programs

Fraud, Waste, and Abuse
In Washington, DC 202-690-1622
Outside DC 800-424-9121
TDD (Call Collect) 202-690-1202

Bribes or Gratuities
202-720-7257 (Monday-Friday, 9:00a.m.- 3 p.m.               ED




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on the basis of race, color, national origin,
age, disability, and where applicable, sex (including gender identity and expression), marital status, familial status, parental status, religion, sexual
orientation, political beliefs, genetic information, reprisal, or because all or part of an individual's income is derived from any public assistance program.
(Not all prohibited bases apply to all programs.) Persons with disabilities who require alternative means for communication of program information
(Braille, large print, audiotape, etc.) should contact USDA's TARGET Center at (202) 720-2600 (voice and TDD). USDA is an equal opportunity provider
and employer.
